       July 22, 2002




   Financial Management

  Accounting and Reporting Processes
  at Defense Finance and Accounting
  Service San Antonio
  (D-2002-130)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General of the
  Department of Defense, Home Page, at www.dodig.osd.mil/audit/reports or contact
  the Secondary Reports Distribution Unit of the Audit Followup and Technical
  Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
DFAS IN-SF            Defense Finance and Accounting Service Indianapolis (Sustaining
                         Forces)
FMR                   Financial Management Regulation
GLAC                  General Ledger Account Code
SOP                   Standard Operating Procedure
STANFINS              Standard Finance System
USGSGL                U.S. Government Standard General Ledger
         Office of the Inspector General of the Department of Defense
Report No. D-2002-130                                                      July 22, 2002
  (Project No. D2001FI-0178.002)

         Accounting and Reporting Processes at Defense Finance
                  and Accounting Service San Antonio

                                   Executive Summary

Who Should Read This Report and Why? DoD and Army management responsible
for policy and procedures relating to financial accounting and reporting and personnel
preparing Army financial statements should read this report. The report identifies
noncompliance with DoD requirements to properly support accounting adjustments made
to general ledger data, and with U.S. Government Standard General Ledger requirements
to correctly record Expended Appropriations.

Background. The Defense Finance and Accounting Service (DFAS) Indianapolis
(Sustaining Forces) provides finance and accounting support to the Army and Other
Defense Organizations. Support includes maintaining departmental accounting records
and preparing financial statements and reports from financial information submitted by
DoD field accounting sites and other sources. Financial data are generated and
accumulated throughout the month by DFAS San Antonio for its Army and other DoD
customers. The data are stored and processed in the Standard Finance System. The trial
balance data are submitted on a monthly basis to DFAS Indianapolis (Sustaining Forces)
for preparing financial statements and reports. Starting in FY 2002, DFAS Indianapolis
(Sustaining Forces) will prepare both year-end and mid-year financial statements, and
quarterly financial statements will start to be prepared in FY 2003.

Results. Of the 683 journal vouchers prepared in September 2001, 21 (totaling
$145.1 million) were reviewed. The 21 journal vouchers did not adequately support
accounting adjustments made to general ledger data. Journal vouchers also were
approved without adequate supervisory reviews. Unless the controls over the preparation
and review of accounting adjustments are improved, DFAS Indianapolis (Sustaining
Forces) will continue to receive unreliable financial information to prepare financial
statements and reports. The Commander, DFAS San Antonio needs to revise the
“Standard Operating Procedure for Journal Vouchers,” in order to improve internal
controls supporting and approving journal vouchers (finding A).

The DFAS San Antonio did not record $2.67 billion in Expended Appropriations for the
FY 2001 Army General Fund. DFAS Indianapolis (Sustaining Forces) used status of
appropriations data in an attempt to populate the Expended Appropriations account and
adjust the related equity accounts. However, the Expended Appropriations balance had
$222 million more using the status of appropriations data rather than DFAS San Antonio
general ledger accounts. The Expended Appropriations and the related equity accounts
are not recorded in accordance with the U.S. Government Standard General Ledger and
the DoD Financial Management Regulation. Therefore, DFAS Indianapolis (Sustaining
Forces) will continue to prepare financial statements and reports using unreliable data.
The Director, DFAS Indianapolis (Operating Forces) should initiate system changes to
the Standard Finance System to allow for the proper processing of Expended
Appropriations at the field accounting site level (finding B).

Management Comments. DFAS concurred with the recommendations in finding A to
complete journal voucher checklists regarding journal voucher documentation and
monthly progress reports, and stated that corrective actions had already been taken.
DFAS agreed to develop a management plan, but stated that corrective actions would not
be completed until September 1, 2002. DFAS also concurred with the audit
recommendations in finding B regarding the Standard Finance System and stated that
corrective actions were underway. We consider the comments to be fully responsive to
the recommendations. See findings A and B for a discussion of the management
comments. See the Management Comments section for the complete text of the
comments.




                                          ii
Table of Contents

  Executive Summary                                i



  Background                                      1


  Objective                                       2


  Findings
       A. Controls Over Accounting Adjustments     3
       B. Standard Finance System                 10

  Appendixes
       A. Scope and Methodology
            Scope                                 15
            Methodology                           15
            Management Control Program Review     16
            Prior Coverage                        17
       B. Schedule of Journal Vouchers Reviewed   18
       C. Report Distribution                     20

  Management Comments
       Defense Finance and Accounting Service     23
Background
    Chief Financial Officers Act of 1990. Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994, requires
    DoD to prepare annual audited financial statements. Office of Management and
    Budget Bulletin (the Bulletin) No. 01-09, “Form and Content of Agency Financial
    Statements,” September 25, 2001, provides guidance for preparing financial
    statements. Beginning FY 2002, the Bulletin requires Federal agencies to prepare
    unaudited interim financial statements for the six-month period ending
    March 31, 2002. Federal agencies will also be required to prepare quarterly
    financial statements starting FY 2003.

    Federal Financial Management Improvement Act of 1996. Public Law
    104-208, the “Federal Financial Management Improvement Act of 1996,”
    September 30, 1996, requires each Federal agency to implement and maintain
    financial management systems that comply with the:

           •   Federal financial management system requirements (Federal system
               requirements),

           •   Federal accounting standards, and

           •   U.S. Government Standard General Ledger (USGSGL) at the
               transaction level.

    Federal system requirements call for audit trails that identify document input,
    changes, approval, and deletions by originator. In addition, Federal system
    requirements specify that all transactions are processed consistently to ensure the
    validity of the audit trails and transactions, regardless of their point of origin.

    Defense Finance and Accounting Service Indianapolis Responsibilities. The
    Defense Finance and Accounting Service (DFAS) Indianapolis has two major
    centers, Sustaining Forces and Operating Forces. DFAS Indianapolis (Sustaining
    Forces), hereafter referred to as DFAS IN-SF, provides finance and accounting
    support to the Army and Other Defense Organizations. Support includes
    maintaining departmental accounting records, and preparing both financial
    statements and reports from general ledger and status of appropriations data. The
    Headquarters Accounting and Reporting System processes the data. DoD field
    accounting sites and other sources submit the financial information. DFAS
    Indianapolis (Operating Forces) is responsible for maintaining DFAS financial
    management systems.

    Defense Finance and Accounting Service San Antonio. The Army Accounting
    Directorate at DFAS San Antonio is responsible for processing accounting data
    for its customers. The Consumer Funds Branch, Army Accounting Division, is
    responsible for recording accounting transactions and making adjustments to the
    trial balance data. The Analysis and Reports Branch, Army Accounting Division,


                                         1
            is responsible for performing trial balance reconciliations to ensure the accuracy
            and integrity of the data. DFAS San Antonio generates and accumulates financial
            data throughout the month for the Army and Other Defense Organization General
            Funds. The data are stored and processed in the Standard Finance System
            (STANFINS), with DFAS San Antonio using a variety of applications to process
            the data. DFAS San Antonio sends monthly trial balance data on the fifth
            working day of the following month using the “HCA” system1. DFAS IN-SF
            receives the trial balances and processes them. This cycle is performed each
            month and one additional time for fiscal year-end data.


Objective
            The audit objective was to determine whether the accounting and reporting
            processes used by DFAS San Antonio to compile and submit financial
            information to DFAS IN-SF were reliable. Appendix A discusses the scope and
            methodology related to the audit objectives, the review of the management control
            program, and prior audit coverage.




1
    HCA is the Field File Transfer System. It routes the incoming trial balance data to the Headquarters
    Accounting and Reporting System.




                                                        2
           A. Controls Over Accounting
              Adjustments
           Of the 683 journal vouchers prepared in September 2001, 21 (totaling
           $145.1 million) were reviewed. The 21 journal vouchers did not
           adequately support accounting adjustments made to general ledger data.
           In addition, the journal vouchers were approved without adequate
           supervisory reviews. The deficiencies occurred because the Standard
           Operating Procedure (SOP) for preparing and approving journal vouchers
           was not complete. Also, DFAS San Antonio did not have an effective
           quality assurance program to ensure that established procedures for
           preparing and reviewing journal vouchers were followed. Unless the
           controls over the preparation and review of accounting adjustments are
           improved, DFAS IN-SF will continue to receive unreliable financial
           information to prepare financial statements and reports.


Journal Voucher Guidance
    DFAS uses journal vouchers to make adjustments to the accounting records.
    Journal vouchers must be properly prepared to ensure that an audit trail exists and
    that the adjustments were proper and accurate. Two primary types of journal
    vouchers are used: correcting and source-entry. Correcting journal vouchers
    adjusted accounting errors identified during the review process. Source-entry
    journal vouchers are accounting entries not otherwise recorded because of system
    limitations or timing differences. DoD has policy and procedures for making
    adjusting entries and preparing journal vouchers in DoD Regulation 7000.14-R,
    “DoD Financial Management Regulation” (FMR). DFAS headquarters has also
    issued guidance in a series of memorandums addressing the preparation and the
    control of journal vouchers.
    DoD Guidance. The FMR, volume 6A, “Reporting Policy and Procedures,”
    February 1996, states that audit trails are necessary to maintain sufficient detail to
    permit tracing of transactions with a unique identity from the source to
    transmission to DFAS. The FMR requires the necessity to demonstrate the
    accuracy, completeness, and timeliness of a transaction and also requires DFAS
    to:

           •   identify the requirement for adjustments to financial data, and

           •   provide written support and justification for the adjustments.

    Documentation related to the accounting entry must include the rationale and
    justification. The documentation also must include the detail numbers and dollar
    amounts of errors or conditions that are associated with the transactions or records
    that are proposed for adjustment; and the name and position of the approving
    official.



                                          3
    DFAS Guidance. DFAS headquarters issued the memorandum “Journal Voucher
    Guidance,” October 28, 1999, that provided guidance on the use and preparation
    of journal vouchers; specifically, the requirements for documenting, reviewing for
    accuracy, and approving journal vouchers. On August 2, 2000, DFAS
    headquarters issued another memorandum on the same subject, providing
    guidance incorporating and emphasizing the requirements in the
    October 28, 1999, memorandum. The guidance states that all journal vouchers
    must be: adequately supported by documentation and explanations, reviewed and
    approved, and sequentially numbered and recorded in a log.


Operational Review Report
    DFAS Denver Internal Review performed an operational review of the DFAS
    San Antonio accounting operations in February 2001. The operational review
    reported that DFAS San Antonio had not implemented the internal control
    procedures contained in the August 2, 2000, DFAS journal voucher guidance.
    The operational review determined that DFAS San Antonio journal vouchers did
    not:

           •   maintain adequate supporting documentation or specific and detailed
               instructions regarding the content and location of the documents;

           •   contain a clear, concise explanation of the purpose and nature of the
               journal voucher; and

           •   identify the name, title, and office symbol of the preparer and
               approver.

    In response to the operational review report, DFAS San Antonio management
    developed “Standard Operating Procedures for Journal Vouchers,”
    April 26, 2001. The SOP implemented the DFAS journal voucher guidance and
    added procedures unique to DFAS San Antonio for preparing, processing,
    controlling, and maintaining all journal vouchers.


Journal Voucher Preparation and Review
    Of the 683 journal vouchers prepared in September 2001, 21 (totaling
    $145.1 million) were reviewed. We were unable to determine the value of the
    683 journal vouchers because DFAS San Antonio did not record journal voucher
    values in the FY 2001 control logs. The 21 journal vouchers did not adequately
    support accounting adjustments by documentation and explanations made to
    general ledger data. In addition, the journal vouchers also were approved without
    adequate supervisory reviews. Appendix B provides additional information on
    the 21 journal vouchers and the deficiencies identified. DFAS San Antonio
    personnel had not effectively implemented the SOP procedures and controls.




                                         4
Supporting Documentation. DFAS San Antonio did not follow the SOP
documentation requirements to prepare the 21 journal vouchers. Sufficient
supporting documentation was not attached to the journal voucher to determine
whether the adjustment was valid and accurately recorded. For example, DFAS
San Antonio prepared 8 of the 21 journal vouchers (totaling $17.8 million) for
adjustments requested by DFAS San Antonio customers. The SOP states:
           When the duly authorized official receives a customer-requested
           adjustment that is fully supported and complies with the DoD FMR, a
           correcting journal voucher must be prepared. Evidence to support this
           type of adjustment includes supporting documentation provided by the
           customer’s duly authorized official. Evidence also includes any related
           analysis performed by the duly authorized official to ascertain that the
           adjustment is fully supported and complies with the DoD FMR. In
           addition, the journal voucher must document why the adjustment is
           required and how the duly authorized official determined that the
           entries included on the journal voucher are correct.

An example of a customer-requested journal voucher is a cost transfer. DFAS
San Antonio personnel process cost transfer documents to move accounting data
when requested by their customers. The customers used electronic mail, faxes, or
telephone calls to request adjustments to the accounting records. However, when
DFAS San Antonio personnel prepared a journal voucher for a requested
adjustment, the journal voucher did not contain adequate documentation
explaining why the adjustment was needed or made. Customer requested
adjustments were not adequately supported because DFAS San Antonio personnel
stated that the customer was more familiar with the purpose and use of the funds.

The lack of SOP enforcement caused the journal vouchers to be inadequately
supported. However, the SOP procedures did not specifically address adjustments
for cost transfers as recommended by the operational review. The operational
review recommended that DFAS San Antonio should not process cost transfers
without proper documentation and controls. Although the SOP incorporates the
documentation requirements for customer requested journal vouchers, cost
transfers were not addressed.

Journal Voucher Explanations. DFAS San Antonio did not provide adequate
explanations for the need for making the accounting adjustments for 11 journal
vouchers totaling $128.0 million. The SOP established the requirement for
explaining the purpose of the journal voucher and states that the purpose should
be clear and concise. The SOP also requires that the journal voucher purpose
include:

       •   all pertinent facts,

       •   the cause of the error,

       •   why the journal voucher is required, and

       •   the effect if the error is not corrected.



                                         5
The explanations on the journal vouchers reviewed were neither clear nor concise
and did not include all the pertinent facts. Personnel in one accounting section
created standard explanations instead of developing a specific explanation for
each journal voucher. We discussed with DFAS San Antonio personnel the
reasons for the inadequate explanations. DFAS San Antonio personnel stated that
the explanations were created using terminology specific to their office. They
were able to provide adequate explanations for the journal vouchers, but agreed
that someone outside of the field accounting site would find the explanations
difficult to understand. Inadequate explanations occurred because procedures in
the SOP were not enforced.
Journal Voucher Review and Approval. DFAS San Antonio supervisory
review and approval of journal vouchers was inadequate. The SOP requires that
journal voucher reviewers must verify that every journal voucher has a valid audit
trail and explanation. The reviewer is required to return an inadequately prepared
journal voucher to the preparer with the explanation for rejection and the
information needed to obtain an approval with the applicable authoritative
guidance. The SOP requires that approving officials use a checklist in their
review of the journal vouchers. Table 1 shows examples of checklist
requirements.


                  Table 1. Approval Checklist Requirements

        •   A clear and concise explanation on the journal voucher.

        •   Adequate supporting documentation is attached to the journal
            voucher.

        •   The dollar amount is on the journal voucher and is equal to the
            dollar amount on the supporting documentation.

        •   The name, title, and office symbol of the preparer and approving
            official is on the journal voucher.
        •   The preparer and approver sign the journal voucher.



A review of the 21 journal vouchers found no evidence of this checklist used.
DFAS San Antonio reviewers stated that they read the explanation on the journal
voucher but did not use the review checklist. Reading the explanation on the
journal voucher is not a sufficient review and ignores other internal controls, such
as attaching proper supporting documentation and checking mathematical
accuracy. By using the review checklist, reviewers would ensure that journal
voucher preparers implemented the internal control procedures. The SOP should
be revised to require that the review checklist be filed with the journal voucher as
part of the supporting documentation.




                                     6
Quality Assurance Program
     DFAS San Antonio did not have an effective quality assurance program to ensure
     that the procedures in the DFAS guidance and SOP were enforced. DFAS
     San Antonio performed monthly journal voucher reviews to determine whether
     the journal vouchers were prepared properly. The monthly reviews served as a
     quality assurance program and identified repeated deficiencies in the preparation
     of the journal vouchers. However, DFAS San Antonio management did not have
     visibility over the actions needed to correct the internal control deficiencies
     identified by those monthly reviews.

     Monthly Journal Voucher Reviews. The DFAS San Antonio Analysis and
     Reports Branch personnel performed monthly reviews for 20 percent of all
     journal vouchers prepared by the Consumer Funds Branch. The Analysis and
     Reports Branch used the journal voucher checklist in their monthly reviews and
     listed journal voucher errors, non-compliance with guidance, and missing
     vouchers in monthly review reports. The monthly reviews performed July
     through September 2001 identified reoccurring deficiencies, such as: inadequate
     journal voucher documentation and explanations, incorrect dollar amounts, and
     not citing detailed accounting lines on journal vouchers.

     Although the monthly reviews were performed, the DFAS San Antonio
     Commander had not received the monthly progress reports. Instead, the journal
     voucher review reports were provided by electronic mail to the Chief of Army
     Accounting, to which the Analysis and Reports Branch Chief and the Consumer
     Funds Branch Chief are assigned. The deficiencies found were also discussed in a
     weekly staff meeting. However, the reporting process was not sufficient to
     resolve the journal voucher discrepancies, and the rate of journal voucher
     deficiencies increased. The percentage of non-compliant journal vouchers found
     increased from 21 percent in July 2001 to 28 percent in September 2001. The
     SOP did not require that the journal voucher review reports be provided to the
     Commander, DFAS San Antonio. Requiring monthly reporting to the
     Commander should provide increased oversight.

     Performance Plan. DFAS San Antonio did not have a plan that established
     performance goals and objectives to measure the progress in reducing journal
     voucher deficiencies. As a result, DFAS San Antonio management could not
     measure the progress in correcting the journal voucher deficiencies. DFAS
     San Antonio should revise the SOP to require that a performance plan be prepared
     to include goals, milestones, and performance measures to correct journal voucher
     deficiencies. The SOP should also include monthly reporting to the Commander,
     DFAS San Antonio.


Use of Block Tickets
     DFAS San Antonio documented a number of adjustments to accounting data with
     Department of Army Form 3974, “Installation Block Ticket.” Block tickets were
     used to record financial information from external sources, and identify the


                                         7
   originator or processing location and type of data that interfaced with STANFINS.
   DFAS San Antonio used block tickets to process obligation and accrual
   transactions in STANFINS. DFAS San Antonio did not maintain a sequentially
   numbered central log for the block ticket adjustments made to accounting data.
   Therefore, the number of block tickets was not readily available. The block
   tickets had no written reason for the adjustments and did not state the effect of
   making the adjustment. In addition, DFAS San Antonio personnel did not review
   or approve block tickets. We did not review the block tickets for adequacy of the
   support documentation.

   DFAS Indianapolis Regulation 37-1, “Finance and Accounting Policy
   Implementation,” revised September 2000, provides guidance on block ticket
   usage. However, this block ticket guidance was not updated to reflect the
   procedures contained in DFAS headquarters and DoD guidance. The DFAS
   memorandum “Journal Voucher Guidance,” October 28, 1999, states that journal
   vouchers are used for source-entry, accounting entries not otherwise recorded in
   the system. The FMR states that DFAS should adequately support any
   adjustment to the official accounting records. Support should contain sufficient
   detail to provide an audit trail to the source transaction that required the
   adjustment. We are not making a specific recommendation regarding block
   tickets because we did not perform a detailed review of the block ticket processes.
   However, block tickets should be subject to the same controls as journal vouchers.


Summary
   DFAS San Antonio did not have adequate controls over the preparation and
   review of journal vouchers because its SOP was inadequate and was not enforced.
   DFAS San Antonio did not properly document customer requested journal
   vouchers in order to maintain an adequate audit trail. Journal vouchers reviewed
   at DFAS San Antonio did not contain complete explanations as required by its
   SOP. DFAS San Antonio supervisors were not adequately reviewing journal
   vouchers; specifically, supervisors were not using the SOP review checklist and
   did not verify that journal vouchers were prepared properly. DFAS reviews
   performed at DFAS San Antonio have identified the same areas of non-
   compliance, but management has not made effective use of the results. Unless
   management controls are improved, DFAS IN-SF will continue to receive
   unreliable financial information to prepare DoD financial statements and reports.
   The need for reliable financial information becomes more important as DoD
   begins to prepare semiannual financial statements in FY 2002 and quarterly
   financial statements in FY 2003.




                                        8
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, Defense Finance and Accounting
    Service San Antonio revise the “Standard Operating Procedure for Journal
    Vouchers,” to:

          1. Include the documentation requirements for customer-requested
    journal vouchers for cost transfers.

          2. Complete the review checklist for each journal voucher prepared
    and have the reviewer attach the review checklist to the journal voucher.

           3. Require a management plan to ensure that journal voucher
    deficiencies are reduced.

          4. Provide monthly progress reports to the Commander, Defense
    Finance and Accounting Service San Antonio, listing the conditions found by
    journal voucher reviews each month.

    Management Comments. The Director, DFAS concurred with
    Recommendations A.1, A.2, and A.4, and stated that corrective actions had been
    completed by April 12, 2002. The Director, DFAS also concurred with
    Recommendation A.3., but stated that corrective action would be completed by
    September 1, 2002. The Director, DFAS commented that the Commander, DFAS
    San Antonio had conducted a 100 percent review of the of the journal vouchers
    that we had questioned during our November 2001 visit. The Director, DFAS
    said that DFAS San Antonio personnel were able to explain the journal vouchers
    to the IG DoD satisfaction. Also, the Director, DFAS stated that IG DoD would
    include a statement in its audit report that all the journal vouchers had been
    corrected.

    Audit Response. The Director, DFAS comments were fully responsive to all
    recommendations. No further comments on those recommendations are required.
    However, the Director, DFAS comments about our November 2001 visit were
    inaccurate. As discussed in “Journal Voucher Explanations,” DFAS San Antonio
    personnel were able to explain why they prepared the journal vouchers; however,
    not all the journal voucher deficiencies had been corrected, such as inadequate
    supporting documentation.




                                       9
           B. Standard Finance System
           The DFAS San Antonio did not record $2.67 billion in Expended
           Appropriations for FY 2001 Army General Fund. This occurred because
           STANFINS did not have the processing structure to record Expended
           Appropriations and related equity accounts in accordance with USGSGL
           and FMR. DFAS IN-SF used status of appropriations data in an attempt to
           populate the Expended Appropriations general ledger account and to
           adjust related general ledger equity accounts for its Army customers.
           However, the Expended Appropriations balance was $222 million higher
           using status of appropriations data than if DFAS San Antonio general
           ledger data were used. Until Expended Appropriations and the related
           equity accounts are recorded in accordance with USGSGL and FMR,
           DFAS IN-SF will continue to prepare financial statements and reports
           using unreliable data.


STANFINS and Accounting Requirements
    STANFINS is a fully automated standard accounting system designed to provide
    accounting support at Army installations and general ledger control over all
    resources. STANFINS was intended to provide full accounting service to those
    installations performing missions financed primarily by consumer fund
    appropriations, such as Operations and Maintenance, Army. STANFINS is one of
    the accounting systems for the Army and Other Defense Organizations serviced
    by DFAS San Antonio. STANFINS does not meet Federal system requirements;
    therefore, until it becomes compliant or is replaced, its financial information will
    be unreliable. The DFAS Indianapolis (Operating Forces) has responsibility for
    maintaining STANFINS.

    The STANFINS general ledger was the installation level version of the Army
    general ledger. The Army general ledger contains proprietary, nominal, and
    budgetary accounts set up in categories similar to USGSGL. The STANFINS
    general ledger was last updated in FY 1996; however, it has not been updated to
    reflect USGSGL. The Federal Financial Management Improvement Act of 1996
    requires that Federal agencies use USGSGL. USGSGL and posting rules are
    contained in Treasury Financial Manual Transmittal Letter No. S2-01-01,
    October 27, 2000, and the DoD implementation guidance is contained in FMR.

    Accounting Requirements. USGSGL uses three general ledger account codes
    (GLACs) in recording and accounting for appropriations received and expended.
    Expended Appropriations (GLAC 5700) is a revenue account and represents the
    amount of current period expenses and purchases of capital assets funded by
    appropriations. Unexpended Appropriations (GLAC 3100) is an equity account
    and represents the amounts appropriated by Congress that have not been
    expended. The Expended Appropriations balance increases and the Unexpended
    Appropriations balance decreases each time an expense is incurred or a capital
    purchase is made.



                                        10
    Cumulative Results of Operations (GLAC 3310) is an equity account that
    represents the net difference from inception of the activity among expenses and
    losses, and financing sources. The Expended Appropriations balance should be
    closed into Cumulative Results of Operations at the end of each accounting
    period.


Expended Appropriations Adjustments
    STANFINS did not properly account for Army General Fund revenue and equity
    for the six fiscal stations serviced by DFAS San Antonio. Expended
    Appropriations of $2.67 billion were not recorded in the general ledger.
    Therefore, offsetting entries of $2.67 billion to Unexpended Appropriations were
    not made, and the year-end balance for Expended Appropriations was not closed
    to Cumulative Results of Operations. As a result, DFAS IN-SF had to make
    unsupported general ledger adjustments to populate Expended Appropriations and
    adjust the equity accounts because STANFINS did not record those transactions
    as required by FMR. The unsupported adjustments became part of the ending
    balance adjustments. The amounts of the unsupported adjustments were a result
    of DFAS IN-SF calculations made from status of appropriations data instead of
    trial balance data. Using status of appropriations data instead of general ledger
    data overstated Expended Appropriations by $222 million for FY 2001. Status of
    appropriations data consists of budget data received from field accounting sites
    and disbursement and collection data received from disbursing stations.

    DFAS Procedures. Upon receipt of financial data from supporting accounting
    field sites, DFAS IN-SF splits the data into two streams, general ledger data and
    status of appropriations data. DFAS IN-SF performed automated edit checks of
    the data. However, DFAS IN-SF did not reconcile general ledger data with status
    of appropriations data to determine whether the information received was accurate
    and proper. Instead, DFAS IN-SF attempted to compensate for the lack of
    reconciliations by forcing general ledger data to agree with status of
    appropriations data. This resulted in unsupported adjustments made to accounting
    data used to compile Army General Fund financial statements and reports. In
    effect, the GLACs 3310, 3100, and 5700 adjustments are calculated using only
    status of appropriations data. DFAS IN-SF has performed the ending balance
    adjustments since FY 1991 without an adequate effort to determine the cause of
    the discrepancies or to correct the problem.

    Prior Audit. The Inspector General of the Department of Defense (IG DoD)
    performed a review of the ending balance adjustments because DFAS IN-SF
    lacked a sustained effort to correct the problem. IG DoD Report No. D-2002-073,
    “Ending Balance Adjustments to General Ledger Data for the Army General
    Fund,” March 27, 2002, recommended that DFAS IN-SF record Expended
    Appropriations and establish control over equity at the departmental level. This is
    only a temporary solution until the causes for discrepancies between the general
    ledger data and status of appropriations data are corrected. In order to correct the
    discrepancies, the general ledger in the field level accounting systems, like
    STANFINS, have to be updated to reflect USGSGL. For FY 2001, DFAS IN-SF



                                        11
           implemented the recommendation to record expended appropriations for the
           Army at the departmental level and as a result, reduced the ending balance
           adjustments by $83.7 billion.

           Use of General Ledger Data. The use of STANFINS trial balance data would
           provide a more accurate calculation of Unexpended Appropriations and
           Cumulative Results of Operations for Army General Fund general ledger data.
           Expended Appropriations was $2.67 billion using general ledger data and
           $2.89 billion using status of appropriations data. Therefore, using status of
           appropriations data overstated Expended Appropriations by $222 million, or
           8.3 percent, for FY 2001. We calculated the general ledger amount by deducting
           the amount in GLAC 1013 (Funds With Treasury), $1.46 billion, from the amount
           in GLAC 3100, $4.13 billion, as reported in the DFAS San Antonio trial balances.
           The difference between GLAC 1013 and GLAC 3100 equals GLAC 5700. The
           status of appropriations amount was calculated using data from the FY 2001
           G0A2 file and the calculation was based on a method used by DFAS IN-SF.
           Amounts were based on Record Data Types (the status of appropriations
           equivalent of a GLAC) for the six fiscal stations serviced by DFAS San Antonio.
           Using Record Data Types to calculate Expended Appropriations is only an
           approximation of GLAC 5700.


STANFINS Processing Structure
           STANFINS did not have the processing structure necessary to account for equity
           in accordance with USGSGL and FMR. The STANFINS general ledger included
           GLAC 5700, but did not have automated accounting processes in place to post to
           this account.

           STANFINS Processing. STANFINS uses a table-driven process with Type
           Action Codes that automatically records detailed transactions to the STANFINS
           general ledger. Type Action Codes are two-digit codes used to enter a transaction
           into STANFINS. Table 2 shows examples of the general ledger effects created by
           the use of three Type Action Codes affecting disbursements, accruals, and
           expenses.




2
    The G0A is summary data at appropriation/limit/fiscal station number/allotment serial number level, of all
    status of appropriations data reported to DFAS IN-SF for a given accounting month, plus departmental
    adjustments.



                                                      12
       Table 2. Examples of Type Action Codes and General Ledger Effects

 Type Action
    Code       Transaction Description         Account Titles (GLAC)

      21       Record Commitments,             Any expense account (6000 series),
               Obligations, Accruals, and      any liability account (2000 series)
               Expenses
      32       Record Accruals and Expenses    Any expense account (6000 series),
                                               any liability account (2000 series)
      40       Record Normal Disbursements     Any liability account (2000 series),
                                               Funds Disbursed (1012.0)



STANFINS contains Type Action Codes that post disbursements and expenses;
however, the needed action to record Expended Appropriations and the effects in
the equity accounts are not in STANFINS. For FY 2001, DFAS San Antonio had
recorded a decrease to GLAC 3100 of only $22,800 when the amount of the
decrease should have been $2.67 billion. Updating the general ledger and
modifying the Type Action Code structure to comply with FMR requirements for
the accounting of Expended Appropriations would allow for a more accurate
reporting at the field accounting site level. Those actions would also reduce the
need for DFAS IN-SF ending balance adjustments to the Army General Fund and
would provide a more accurate balance in Cumulative Results of Operations at the
departmental level at fiscal year-end.

STANFINS Updates. Because STANFINS is a legacy system, major changes
usually are not made unless they impact the mission. However, the STANFINS
Business Manager is able to make changes to those aspects of the system that are
table-driven and do not cause the logic or use of that table to change in the
system. Table-driven actions include the updating of the general ledger and the
amendment of the Type Action Codes. Amending the post-closing routine would
require changes to the internal program language, which would require a System
Change Request. DFAS Indianapolis (Operating Forces) has made such changes
in the past. DFAS Indianapolis (Operating Forces) should initiate updates to
STANFINS to include:

       •   identifying Type Action Codes relating to expenses incurred and
           capital purchases and then amending the appropriate Type Action
           Codes to post the correct entries to Expended Appropriations and
           Unexpended Appropriations, and

       •   amending the post-closing trial balance closing routines to close the
           balance of Expended Appropriations into Cumulative Results of
           Operations prior to submitting the post-closing trial balances to
           DFAS IN-SF.


                                    13
Conclusion
    Although the audit only looked at STANFINS processing at DFAS San Antonio,
    STANFINS provides installation-level accounting support for the Army and other
    DoD Components for some transactions. However, STANFINS does not have the
    processing structure in place to properly account for Expended Appropriations
    and related equity accounts. Proper accounting would provide a more accurate
    accounting of Unexpended Appropriations and Cumulative Results of Operations
    at the Army installation and departmental levels and also for Other Defense
    Organizations. Proper accounting would also eliminate the need for DFAS IN-SF
    to perform the calculated adjustments using status of appropriations data. Until
    Expended Appropriations and the related equity accounts are recorded in
    accordance with USGSGL and FMR, DFAS IN-SF will continue to prepare
    financial statements and reports using unreliable data.


Recommendations and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis (Operating Forces) initiate table-driven changes to the
    Standard Finance System. Specifically:

           1. Identify the Standard Finance System Type Action Codes relating
    to expenses incurred and capital purchases, and then amend the appropriate
    Type Action Codes to post the correct entries to Expended Appropriations
    and Unexpended Appropriations.

           2. Amend the post-closing trial balance closing routines to close the
    balance of Expended Appropriations into Cumulative Results of Operations
    prior to submitting the post-closing trial balances to the Defense Finance and
    Accounting Service Indianapolis (Sustaining Forces).

    Management Comments. The Director, DFAS concurred with the
    recommendations, stating that testing had been completed on the proposed
    corrective actions, that corrective software is to be released, and that a system
    change request regarding amendments to the year-end process had been prepared
    and is being analyzed. The estimated completion date for the corrective actions is
    October 2002. Management comments were responsive and no further comments
    are required on Recommendations B.1. and B.2.




                                        14
Appendix A. Scope and Methodology

Scope
    Work Performed. The primary purpose of this review was to determine whether
    the financial information prepared by DFAS San Antonio was reliable. We
    reviewed the DFAS San Antonio controls over the accounting and reporting of
    financial information submitted to DFAS IN-SF. We specifically reviewed the
    actions taken by DFAS San Antonio to correct deficiencies previously identified
    over the preparation and review of accounting adjustments. DFAS San Antonio
    prepared 9,862 journal vouchers for adjustments made to Army and Other
    Defense Organization accounting data in FY 2001. In addition, we reviewed the
    equity account balances in STANFINS and the processes used to record FY 2001
    equity transactions.

    Limitations to Scope. We could not determine the total number of adjustments
    made to the accounting data. The number of journal vouchers only accounted for
    part of the adjustments made to the accounting data. DFAS San Antonio did not
    maintain a sequentially numbered central log for the block ticket adjustments
    made to accounting data. Therefore, the number of block tickets used was not
    readily determined.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Methodology
    We reviewed the DFAS San Antonio financial reporting processes, to include the
    applications used and the policies and procedures needed in the preparation of
    financial information. We performed an assessment of the processes used by
    DFAS San Antonio to prepare accounting adjustments and general ledger trial
    balances. The assessment determined whether they were in compliance with
    applicable DoD guidance and Federal system requirements. We reviewed the
    adequacy of the processes for compliance with the Federal Financial Management
    Improvement Act of 1996, FMR and DFAS guidance issued October 28, 1999,
    and August 2, 2000. In addition, we conducted interviews with personnel at
    DFAS San Antonio, DFAS Denver, DFAS IN-SF, DFAS Indianapolis (Operating
    Forces), and DFAS headquarters.

    Accounting Adjustments. We reviewed the process and system that DFAS
    San Antonio used to make adjustments to Army and Other Defense Organization
    General Funds accounting data. Our approach was to evaluate the corrective
    actions taken by DFAS San Antonio to correct deficiencies identified by the
    DFAS Denver Internal Review. The DFAS Denver Internal Review performed an
    operational review of DFAS San Antonio accounting operations in


                                       15
    February 2001. The operational review reported that DFAS San Antonio had not
    implemented the internal control procedures contained in the August 2, 2000,
    DFAS headquarters journal voucher guidance. We reviewed the DFAS
    San Antonio reports on monthly journal voucher reviews for July through
    September 2001.

    In addition, of the 683 journal vouchers prepared in September 2001, 21 (totaling
    $145.1 million) we judgmentally selected and reviewed. We were unable to
    determine the value of the 683 journal vouchers because DFAS San Antonio did
    not record journal voucher values in the FY 2001 control logs. We selected
    1 journal voucher for a customer-requested adjustment, 11 journal vouchers to
    correct problem disbursements, and 7 journal vouchers containing both of those
    reasons. In addition, we selected one journal voucher for $122.1 million because
    of the magnitude of the adjustment and one journal voucher because it was
    posting data from one source to STANFINS. We reviewed journal voucher
    control logs, journal vouchers and attached documentation, and performed a
    limited review of internal controls over block tickets.

    General Ledger Trial Balance. We reviewed STANFINS general ledger trial
    balances. We reviewed the reporting of FY 2001 Army General Fund equity in
    the general ledger trial balances.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data in the FY 2001 DFAS IN-SF database “G0A.” We
    tested the data and determined that they were complete but not subject to adequate
    controls. However, when the data are reviewed in context with other transaction
    files, we believe that the opinions, conclusions, and recommendations in this
    report are valid.

    We also used STANFINS trial balance data that affected equity accounts during
    the audit. We did not test the data to determine completeness or whether the data
    were subject to an adequate level of control. As discussed in finding B, we
    identified errors in the accounting for Army General Fund equity. Although we
    were unable to form an opinion on the overall accuracy and completeness of the
    STANFINS data, it did not affect our audit conclusions regarding the accounting
    for equity.

    Audit Dates and Standards. We performed this audit from August 2001
    through January 2002 in accordance with generally accepted government auditing
    standards.

    Contacts during the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive



                                        16
    system of management controls that provides a reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We evaluated
    management controls over the DFAS San Antonio processes and procedures for
    journal voucher preparation and recording of equity accounts in STANFINS. We
    also evaluated the adequacy of management’s self-evaluation over those controls.

    Adequacy of Management Controls. A material management control weakness,
    as defined by DoD Directive 5010.38, existed in the DFAS San Antonio
    procedures for preparing and reviewing journal vouchers and recording of equity
    accounts. Management controls at the DFAS San Antonio were not adequate to
    ensure the reliability of data produced by STANFINS. The recommendations, if
    implemented, will improve controls over the preparation and review of journal
    vouchers, and the recording of equity accounts. A copy of the report will be
    provided to the senior official responsible for management controls at DFAS
    San Antonio and DFAS Indianapolis (Operating Forces).

    Adequacy of Management’s Self-Evaluation. The DFAS FY 2001 Annual
    Statement of Assurance identified System and Accounting Operations at DFAS
    San Antonio as a material weakness. The FY 2001 Annual Statement of
    Assurance stated that DFAS San Antonio had not implemented the DFAS policy
    on journal voucher preparation. The DFAS Denver Internal Review staff
    reviewed and verified that part of the material weakness over journal voucher
    preparation had been corrected, but determined that material weaknesses still
    existed.

    DFAS reported the general ledger and financial reporting as a material weakness
    citing that the Financial Management Improvement Plan addressed system
    problems and solutions. Management reported the lack of adequate financial
    management systems as a management control deficiency and as an impediment
    to an audit opinion in the DoD Financial Management Improvement Plan. The
    DoD Financial Management Improvement Plan identified STANFINS as a legacy
    system and it will be consolidated into the Defense Joint Accounting System in
    FY 2005.


Prior Coverage
    The General Accounting Office and the IG DoD have conducted multiple reviews
    related to financial statement issues. General Accounting Office reports can be
    accessed on the Internet at http://www.gao.gov, and IG DoD reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports.




                                        17
Appendix B. Schedule of Journal Vouchers
            Reviewed
      The table shows the 21 journal vouchers that were reviewed and were all prepared
      in September 2001 by DFAS San Antonio personnel.



                                 Journal Vouchers Reviewed

 Journal      Date       Date           Amount                Deficiencies Found           Completed
 Voucher    Prepared   Reviewed                                                             Review
 Number                                                                                    Checklist
                                                          Supporting       Explanations
                                                         Documentation
JV1090012   9/7/2001   Omitted      $     350,915.01 Inadequate Support      Adequate         No
JV1090013   9/7/2001   Omitted            149,524.46 Inadequate Support      Inadequate       No
                                                                             explanation
                                                                           from customer
JV1090017 9/10/2001    Omitted            396,327.19 Inadequate Support     Inadequate        No
                                                                            explanation
JV1090019 9/10/2001    Omitted            433,576.86       Inadequate        Inadequate       No
                                                        Customer Support     explanation
                                                                           from customer
JV1090034 9/14/2001    Omitted             26,320.80 Inadequate Support      Adequate         No
JV1090038 9/14/2001    Omitted            292,380.21       Inadequate        Inadequate       No
                                                        Customer Support    explanation.
JV1090044 9/17/2001    Omitted            477,877.52       Inadequate        Inadequate       No
                                                        Customer Support     explanation
                                                                           from customer
JV1090045 9/17/2001    Omitted            115,978.32 Inadequate Support      Adequate         No
JV1090059 9/19/2001    Omitted             31,256.43 Inadequate Support      Adequate         No
JV1090071 9/21/2001    Omitted               6,799.87 Inadequate Support     Adequate         No
JV1090073 9/22/2001    Omitted             45,770.18 Inadequate Support      Adequate         No
JV1090088 9/26/2001    Omitted           5,354,524.56      Inadequate        Adequate         No
                                                        Customer Support
JV1090091 9/27/2001    Omitted          11,091,624.68      Inadequate        Adequate         No
                                                        Customer Support
                                    (Continued on next page)




                                                 18
                                 Journal Vouchers Reviewed

 Journal      Date     Date            Amount              Deficiencies Found            Completed
 Voucher    Prepared Reviewed                                                             Review
 Number                                                                                  Checklist
                                                       Supporting       Explanations
                                                      Documentation
JV1090111 9/30/2001    Omitted     $     52,897.32      Inadequate        Adequate          No
                                                     Customer Support
JV1090115* 9/30/2001   Omitted           29,001.11 Inadequate Support     Adequate          No

JV1090020   9/7/2001   Omitted          987,916.82 Inadequate Support    Inadequate         No
                                                                         explanation
JV1090048 9/12/2001    Omitted          774,244.24      Inadequate        Inadequate        No
                                                     Customer Support     explanation
                                                                        from customer
JV1090052 9/12/2001    Omitted          890,422.08 Inadequate Support    Inadequate         No
                                                                         explanation
JV1090064 9/13/2001    Omitted          797,748.36      Inadequate       Inadequate         No
                                                     Customer Support    explanation

JV1090093 9/17/2001    Omitted          716,195.55 Inadequate Support    Inadequate         No
                                                                         explanation
JV1090115* 9/20/2001   Omitted      122,110,397.10 Inadequate Support    Explanation        No
                                                                        does not match
                                                                        corresponding
                                                                          line items

                    Total         $145,131,698.67
   *
    Journal vouchers are not duplicates because DFAS San Antonio manages five STANFINS
   databases and tracks journal vouchers by each of the STANFINS database.




                                                19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)
   Director, Defense Finance and Accounting Service Indianapolis (Operating Forces)

Non-Defense Federal Organization
Office of Management and Budget




                                           20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          21
Defense Finance and Accounting Service
Comments




                       23
24
25
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of Inspector General of the
Department of Defense who contributed to this report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Jack L. Armstrong
Craig W. Zimmerman
Kathleen A. Furey
Kara N. Welty
Ann A. Ferrante
